Supreme Court, U.S.
FILED

1-5190

JUN 2 5 2021
OFFICE OF THE CLERK

No.

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)

vs.

JoD^ 3b«tfS<W, VAjkX*/J UJA/T^j CL
Coders i
■Sot'ifJ Oon
— RESPONDENT(S)
3V
ibivtOWL. MD OFFICIAL
v '
c/jp/Qor/^S,
ON PETITION FOR A WRIT OF CERTIORARI TO

(J,S. Guex OF APPEALS Fc^tue hm{iQfniT^
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

SffouilftgT
(Your Name)

Hi?. Wool) gr
(Address)

‘SPKif'tFiuLO
(City, State, Zip Code)

f

(Phone Number) E
■a

SQ

S10Q7-

QUESTION(S) PRESENTED

1.) WHETHER JURISTS OF REASON WOULD FIND THAT THE APPELLATE COURT ERRED, WIEN IT DISMISSED
THE PETITIONER'S APPEAL FOR A LACK OF JURISDICTION.

2.) WHETHER JURISTS OF REASON WOULD FIND THAT THE APPELLATE COURT ERRED, WIEN CONTRARY TO THE
APPELLATE COURT’S OWN PRESIDENT, THE APPELLATE COURT DID NOT REVIEW THE DISTRICT COURT'S
ERRONEOUS APPLICATION OF RULE fiO(b) TO THE PETITIONER'S RULE 59(e) MOTION FOR
RECONSIDER ATIOti.

3.) WHETHER JURISTS OF REASON WOULD FIND THAT THE APPELLATE COURT ERRED, WIEN IT FOUND THE
PETITIONER’S PETITION FOR A REHEARINO WAS UNTIMELY'.

4.) WHEN THE DISTRICT COURT DENIED THE PETITIONER'S RULE 59(e) MOTION, WAS THE DISTRICT
COURT'S SCREENING ORDER FINAL, AND COULD THE APPELLATE COURT HAVE REVIEWED THE DENIAL

5.) COULD THE PETITIONER FILE A RULE 59(e) MOTION WITH THE DISTRICT COURT TO ADDRESS THE
CLAIMS AND DEFENDANTS THE DISTRICT COURT DISMISSED IN IT'S 1915A SCREENING ORDER

6.) WAS THE DISTRICT COURT'S DENIAL OF THE PETITIONER'S RULE 59(e) MOTION APPEALABLE UNDER
2B USC 8 1291 AS A 'COLLATERAL' ORDER

( THESE QUESTIONS ARE RAISED WITHIN THE PETITIONER'S BRIEF (SEE APPENDIX E.) 1

J

LIST OF PARTIES

[ ] All parties appear in the caption of the

case on the cover page.
BO All parties do not appear in the caption of the
case on the cover page. A list of
all parties to the proceeding in the
court
whose
judgment is the subject of this
petition is as follows:
The underlying 42 USC 8 19R3 action was orignally entitled 'Hines v. Kaemingk et al’, but
the following defendants/respondents were dismissed by the district court in its 1915A
screening; Dennis Kaemingk, Secretary of Corrections; Darin Young, Warden; Cody Hanson,
Unit/Case Manager; Melissa Maturan, Administrative Remedy Coordinator; Todd Brandtr Yankton
Police Detective; Yankton County; Brandon BaBrie, Unit/Case Manager & Unit
Coordinator; All sued in both individual and official capacities.

related cases

TABLE OF CONTENTS
OPINIONS BELOW......................

.... 1
JURISDICTION................................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE......................
REASONS FOR GRANTING THE WRIT...............
CONCLUSION...............

INDEX TO APPENDICES
appendix a
APPENDIX B

a.

DECISION Alin ORDERS OF THE EIGHTH COURT OF APPEALS

DEC] SlOtl AND ORDER OF THE DISTRICT COURT OF SOUTH DAKOTA

appendix c
C0MPtMHT (n0C- 27>' W8TRICT COURT

59(e) (noc. 34)

appendix d
APPENDIX E

'

reconsideration motion under ped.r.civ.p.

0. IN APPELLATE COURT; REQUEST FOR COAs (March 23, 2021), PETITION
FOR A REHEARING (June A, 2021)
E. IN THE SUPREME COURT; PETITIONER'S BRIEF

appendix f
F. STIPULATION GRANTING HABEAS CORPUS RELIEF AND VACATING
SENTENCE

TABLE OF AUTHORITIES CITED
CASES
PAGE NUMBER

Banister v. Havis, 140 S. Ct. 1690 (2020)

P- 5, 66, 67

Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555, 127, S. Ct.
1955, 167 L. Ed 2d (2007)

P* 5

Erickson v. Pardus, 551 U.S.
99, 94, 127 S. Ct.
2197, 167 L. Ed. 2<3 3001 (2007)

p. 5

Lauro Lines s.r.i. v. Chasser, 490-499,
109 S. Ct. (1909)

p. 65

Mohawk Indus. v. Carpenter, 550 u.S.
100 S. Ct. (2009)

P« 65, 66

Eighth Circuit Cases
Jensen v. Minn. Bep't of Human Servs
•

I

097 P.3d 900 (0th Cir. 2010)

Mitchel v. Johnson, 1999 U.s.
App. LEXIS 11207 (0th Cir. 1999)
Schoffstali v. Henderson, 223 P.3d 010 (0th Cir.
2000)

STATUTES AND RULES

p. 65, 67
p. 65
p. 66

Ped.R.Civ.P. 59(e)
p. 3, 4, 5, 64, 65, 66, 67
Fed.R.Civ.P. 60(b)
P« 3, 4, 64, 65, 66
20 USC fi 1291

P- 3, 4, 64, 65, 67
20 USC 8 3 915A
P* 3, 4, 5, 64, 67

42 USC fi 1903
P- 3, 4, 5, 64, 67

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[}Q For cases from federal courts:

A_ to

The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
|^j is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B_to

[Xj reported at__ HitffcS V. JoHrfjiorJ; 2o2.1 US, Dl5r LJM5
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[Jk

5&63/

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A/A to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

fit*
The opinion of the _
court
appears at Appendix AiA to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
' 1.

JURISDICTION

^ For eases from federal courts:

™ d_$SIlt^g£f*•«* oou,t * App«,i, deddri my case
W No petition for rehearing was timely filed in my case.

1

™ deniaby U“ “**<
order denying rehearing appearsat Appendix /l/A

Oort o,
and 3 C°Py °f the

[ ] An extension of time to file
to and including________ _
in Application Na Aa a)/V

(date)

The jurisdiction of this Court iis invoked under 28 U. S. C. § 1264(1).

/\jfr f 3 For cases from state courts:
pie date on which the highest state court decided my case was
A copy of that decision appears at Appendix Afc

hk

C ] A timely petition for rehearing was thereafter denied on the following dateappears at Appendix

a copy of the order denying rehearing

1J ir

Application No. fifa A jv^.

---------(date) m

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Fed.R.Civ.P. 59 (e) Motion to Alter or Amend a Judgment. A motion to alter or amend a
judgment must be filed no later than 20 days after the entry of the judgment.

Ped.R.Civ.P. 60 (b) Grounds for Relief from a final Judgment, Order, or Proceeding. On
motion and just terms, the court may relieve a party or its legal representative from a
final judgment or order for the following reasons: (1) mistake, inadvertence, surprise,
or excusable neglect; (2) newly discovered evidence that, with reasonable diligence,
could not have been discovered in time to move for a new trial under Rule 59(b); (3)
fraud, misrepresentation, or misconduct by an opposing party; (4) the judgment is void;
(5) the judgment has been satisfied, released, or discharged; (6) any other reason that
justifies relief.

2B USC 0 1291 Final Decisions of District Courts. The courts of appeals shall have
jurisdiction of appeals from all final decisions of the district courts of the United
States, except where a direct review may be had in the Supreme Court.
20 IJSC 8 1915A. Screening, (a) The court shall review a complaint in a civil action in
which a prisoner seeks redress from a governmental entity, officer or employee, (b) On
review, the court shall identify cognizable claims or dismiss the complaint, or any
portion of the complaint.
42 USC
1 903. Civil Rights Action. Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or Territory, or the District of
Columbia, subjects, any citizen of the United States the deprivation of any rights,
privileges, or immunities secured by the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity, or other proper proceeding for
redress.

3.)

STATEMENT OF THE CASE
The Petitioner was convicted of manslaughter and sentenced on June 7, 2012 in Yankton
County. The trial court’s oral pronunciation of sentence and judgment indicated that the
Petitioner owed 'restitution', but no amount was indicated. However, the Petitioner's
S.D.D.O.C. account statements showed the Petitioner owed $ 10,000,000.00+ for 'court-ordered
obligations'.
Then, without notice, on May 2, 201R the Petitioner noticed his S.n.D.O.C. account statement
showed that the Petitioners 'court-ordered obligations' had been REDUCED by $10,000,000.00.
S.n.D.O.C. Respondent Hansen told the Petitioner that an unknown Yankton County Respondent
had contacted him and requested the $10,000,000.00 financial obligation be changed, which
he did without any documentation.
The Petitioner exhausted his S.n.D.O.C. grievances, and also, received no response from the
notarized letters that he sent to the Yankton County Respondents.
Another claim involved Respondent Todd Brandt, a Yankton County Detective, who sent the
Petitioner letters requesting 'releases' of evidence, and he had S.n.D.O.C. staff asking
the petitioner questions on his behalf, relating to 'evidence' in the Petitioner's underlying
criminal conviction.
All of these activities occurred while the Petitioner had attorneys of record, pending
appellate proceedings and while the Petitioner was being civilly sued for $5,000,000.00
related to wrongful death.
The Petitioner filed a fi 1903 Amended Complaint, the district court conducted a fi 1915A
screening of the Petitioner's Amended Complaint and dismissed most of the claims and
Respondents.
The Petitioner filed a Reconsideration Motion under Fed.R.Civ.P. 59(e), in which, the
Petitioner addressed errors law and fact within the district court's screening, and
additionally supplied the district court with supportive documentation the Petitioner had
received since his Amended Complaint was filed.
Despite the district court's prior granting of nearly identical, motion, the district court
stated, "Here, [Petitioner] is not moving to alter or amend a judgment, but rather this
Court's screening order. . Rule 59(e) is not the proper avenue for [Petitioner's] motion.
The Eighth Circuit has traditionally instructed courts to consider such motions under either
Rule 59 or Rule 60(b)". The district court denied the Petitioner's Rule 59(e) motion under
the legal standard of Rule 60(b).
The Petitioner appealed the denial to the Eighth Circuit Court of Appeals. Asserting that
Rule 59(e) and not Rule 60(b) applied cannot be 'mixed', citing this Courts holdings in
Banister v. Davis, 140 S. Ct. 1690 (2020) define Rule 59(e)'s function. The Eighth Circuit,
in a summary disposition, 'dismissed for lack of jurisdiction.'
Petitioner's Writ of Certiorari raises issues related to 1915A screening, application of
Rule 59(e) and appellate jurisdiction.

I
4.)

REASONS FOR GRANTING THE PETITION
This Court's review can greatly benefit inmates and the courts in 42 USC 8 19B3 litigation.
Under the PPLA, to bring Constitutional claims under 42 USC 8 19B3 an inmate must exhaust
available remedies and their complaint must undergo 1915A screening by a district court.
This Court has held that civil rights and pro se complaints MUST BE liberally construed.
Erickson v. Pardus, 551 U.S. B9, 9-3, 127 S. Ct. 2197, 167 L. Ed. 2d 1 OBI (2007). A complaint
"does not need detailed factual allegations . . . [but] requires more than labels and
conclusions, and a formulaic recitation of the elements of the cause of action will not do."
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007), a
complaint's factual allegations must be "enough to raise a right to relief above the
speculative level on the assumption that all the allegations in the complaint are true."
Id. at 555.
Differences in legal understanding exist between inmates and district courts. An inmate can
describe a valid constitutional violation to the best of their ability, and it is highly
probable that a district court can misunderstand and dismiss the claim.
If a inmate cannot state their valid claim to the district court any more clearly, and an
amended complaint and subsequent 1915A screening would end in another dismissal of the
claim? what post 1915A screening remedy should the inmate utilize to cure the possible
deficiency in the district court's dismissal.??
Post 1915A screening. Pule 59(e) makes obvious sense. "Pule 59(e) allows a litigant to file
a "motion to alter or amend a judgment." . . . The Pule gives a district court the chance
"to rectify its own mistakes in the period immediately following" its decision. White v.
New Hampshire Dep't of Employment Sec., -355 U.S. 445, -350, 102 S. Ct. 1162, 71 L. Ed. 2d 325
(1902)." Bansiter v. Davis, 140 S. Ct. 169R (2020) at 1703.
Therefore, if a constitutional, claim still exists, post 1915A screening. Pule 59(e) allows
a inmate and a district court the opportunity to economically cure a possible deficiency in
the 1915A screening by amending the judgment. This saves judicial resources, allows for
faster and better overall adjudication of cases, to the benefit of the courts and parties,
and any deficiency in the 1915A screening process has a higher chance of being resolved
without involving the appellate courts.
The Petitioner’s case could be a brigbtline ruling for this Court on the above stated issue,
and it involves well documented and extremely oppressive constitutional violations by multiple
individuals from different branches of government, concealing and altering documents
and information related to the Petitioner's criminal conviction. (See Appendix C.)
Despite stated constitution
Appendix F.) Constitutional
42 USC 8 19B2. The district
being brought. Petitioner's

violations, the Petitioner won his state appellate action. (See
violations of rights by local government are a societal interest,
and appellate courts rulings have prevented these claims from
claims cannot be litigated without interaction from this Court.

5.}'

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

^fjjA-jykjLdL^ SauajjxkaA'
Date:

JnrJZ 2-M; lOti

6.) \

